LEGAL PRINTERS

LLC

202-747-2400
202-449-9565 Fax
LegalPrinters.com

May 27, 2021

Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002
RE NO. 20-480:

5614 Connecticut Avenue, NW #307
Washington, DC 20015

DAVID BYRON BABCOCK V. ANDREW M. SAUL, COMMISSIONER OF
SOCIAL SECURITY

Dear Sir or Madam:
I hereby certify that at the request of counsel for Amici Curiae National
Veterans Legal Services Program, Reserve Organization of America, and Enlisted
Association of the National Guard of the United States, on May 27, 2021, I caused
service to be made pursuant to Rule 29 on the following counsel for the Petitioner and
Respondent:
PETITIONER:
Neal Kumar Katyal
Hogan Lovells US LLP
555 Thirteenth St., N.W.
Washington, DC 20004
202-637-5600
neal.katyal@hoganlovells.com

RESPONDENT:
Elizabeth B. Prelogar
Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
202-514-2217
SupremeCtBriefs@USDOJ.gov

This service was effected by depositing three copies of the Brief of Amici Curiae
National Veterans Legal Services Program, Reserve Organization of America, and
Enlisted Association of the National Guard of the United States in an official “first
class mail” receptacle of the United States Post Office as well as by transmitting a
digital copy via electronic mail.
Sincerely,
Jack Suber, Esq.
Principal

Sworn and subscribed before me this 27th day of May 2021.

